No.

3Jn tbe ~upreme ((ourt of tbe mtniteb $tates
AT&T MOBILITY LLC; NEW CINGULAR WIRELESS PCS LLC; NEW CINGULAR
WIRELESS SERVICES, INC.,

Petitioners,
v.
STEVEN MCARDLE,

Respondent.

CERTIFICATE OF SERVICE
I, Andrew J. Pincus, counsel for Petitioners and a member of the Bar of this
Court, certify that on this 27th day of February, 2020, I caused three copies of the
Petition for a Writ of Certiorari in the above-captioned case to be served by
overnight delivery on the following:
ADAM J. GUTRIDE
SETH A. SAFIER
Gutride Safier LLP
100 Pine Street, Suite 1250
San Francisco, CA 94111
(415) 639-9090

MATTHEW T. MCCRARY
Gutride Safier LLP
265 Franklin Street, Suite 1702
Boston, MA 02110
(214) 502-2171

Counsel for Respondent
I further certify that all parties required to be served have been served.

Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
apincus@mayerbrown.com
(202) 263-3000

